U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                    The Bureau of Alcohol, Tobacco,
                       Firearms and Explosives’
                       Investigative Operations
                            at Gun Shows

                                      June 2007




                                 I-2007-007
                             EXECUTIVE DIGEST


INTRODUCTION

       The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
has the dual responsibilities of enforcing federal criminal laws regarding
the possession and use of firearms and explosives, as well as regulating
the firearms and explosives industries. ATF works to investigate and
reduce crime involving firearms and explosives, acts of arson, and illegal
trafficking of alcohol and tobacco products. As part of its enforcement of
federal firearms laws, ATF has conducted operations at gun shows to
investigate whether firearms are being sold or bought illegally.

        A gun show is an exhibition or gathering where guns, gun parts,
ammunition, gun accessories, and literature are displayed, bought, sold,
traded, and discussed. The types of guns displayed and sold at gun
shows include new and used handguns, semi-automatic assault
weapons, shotguns, rifles, and curio or relic firearms. The estimated
number of gun shows held each year in the United States can range from
2,000 to 5,200. 1 These shows provide a venue for the sale and exchange
of firearms by federal firearms licensees (FFL) who are licensed by the
federal government through ATF to manufacture, import, or deal in
firearms. Such shows also are a venue for private sellers who buy and
sell firearms for their personal collections or as a hobby. In these
situations, the sellers are not required to have a federal firearms license.
Although federal firearms laws apply to both FFLs and private sellers at
gun shows, private sellers, unlike FFLs, are under no legal obligation to
ask purchasers whether they are legally eligible to buy guns or to verify
purchasers’ legal status through background checks. 2 This mix of
licensed and private firearms sellers makes gun shows a unique forum
for gun sales.

      ATF’s investigative operations at gun shows received widespread
attention in February 2006 when Congress held two hearings to examine




       1   We found no definitive source for the number of gun shows held annually.

       2 Background checks on individuals who purchase firearms from an FFL have
been required since passage of the Brady Handgun Violence Prevention Act in
November 1993.


U.S. Department of Justice                                                            i
Office of the Inspector General
Evaluation and Inspections Division
the law enforcement techniques used by ATF agents at eight gun shows
held in Richmond, Virginia, from May 2004 through August 2005. 3

       The first hearing presented testimony from four witnesses who
alleged that ATF agents used aggressive and harassing techniques
primarily at a gun show held on August 13 and 14, 2005, at the
Richmond International Raceway in Virginia. Three of the witnesses
were present at the gun show: the gun show promoter, a gun salesman
who worked for a federally licensed dealer but represented himself as a
private seller at the show, and a federally licensed dealer who had
exhibited his firearms collection for sale at the Richmond gun show. The
fourth witness was a private investigator who was hired by the National
Rifle Association (NRA) to conduct an investigation of ATF enforcement
activity at the August 2005 gun show. The witnesses alleged that ATF
Special Agents and state and local police interrogated and intimidated
gun buyers, targeted women and minorities as potential straw
purchasers, visited the homes of buyers to verify their addresses, and
detained some gun buyers after they left the gun show and seized their
weapons without cause. 4

       At the second congressional hearing, representatives from ATF, the
City of Richmond Police Department, and the Henrico County Division of
Police responded to the allegations. 5 The ATF representative
acknowledged that some investigative techniques were not implemented
in a manner consistent with ATF’s best practices but that the “focus at
the Richmond-area gun shows was on indicators of criminal activity, not
on the color of skin or the gender of potential suspects.” 6 The
representative from the City of Richmond Police Department stated that

       3  The Subcommittee on Crime, Terrorism, and Homeland Security, Committee
on the Judiciary, House of Representatives, conducted the hearings on February 15
and 28, 2006. (See Government Printing Office website for a full transcript of the
hearings, 109th Congress, Serial No. 109-123; or the U.S. House of Representatives
website, 109th Congress for Part I on February 15, 2006, and Part II on February 28,
2006, for the transcripts of the hearings.)

       4 ATF defines a straw purchase as “the acquisition of a firearm(s) from an FFL

by an individual (the “straw”) done for the purpose of concealing the identity of the true
intended receiver of the firearms.” (ATF Order 3310.4B, Firearms Enforcement
Program, Chapter K, Section 143(ee).)

       5   The following individuals testified at the second hearing: the ATF Assistant
Director for Field Operations, a Major in the City of Richmond Police Department, and
the Deputy Chief of Police for the Henrico County Division of Police. Henrico County,
Virginia, is adjacent to the City of Richmond.

       6   Hearing transcript, p. 43.


U.S. Department of Justice                                                                ii
Office of the Inspector General
Evaluation and Inspections Division
the Police Department had no intent to deny any citizen the ability to
purchase a firearm, but rather to prevent the acquisition of a firearm in
an illegal manner, and thereby reduce crime in the City of Richmond.
The representative from the Henrico County Division of Police stated that
county police officers conducted only six residency checks related to the
Richmond gun show, and that each check took less than 20 minutes.
The Henrico police official testified that no gun purchases by Henrico
County residents were denied or delayed due to the checks.

       Subsequent to the congressional hearings, the House of
Representatives passed a bill, H.R. 5092, known as the Bureau of
Alcohol, Tobacco, Firearms and Explosives Modernization and Reform
Act of 2006. The bill included language requesting that the Office of the
Inspector General (OIG) assess how ATF conducts “the gun show
enforcement program and blanket residency checks of prospective and
actual firearms purchasers.” 7 The bill was subsequently forwarded to
the Senate for consideration, but no vote was taken by the Senate in the
109th Congress and the proposed legislation was not enacted.

     In light of the congressional interest in this issue, the OIG
conducted this review to examine the policies, procedures, and oversight
mechanisms that guide ATF’s investigative operations at gun shows.

RESULTS IN BRIEF

       We found that ATF does not have a formal gun show enforcement
program, but conducts investigative operations at gun shows when it has
law enforcement intelligence that illegal firearms activity has occurred or
is likely to occur at specific gun shows. We also found that ATF’s
operations at gun shows constitute a small percentage of its overall
investigative activities. Past operations at gun shows have yielded
multiple arrests and convictions of individuals engaging in firearms
trafficking, as well as seizures of firearms that were purchased or offered
for sale illegally. In addition, we found that ATF conducted most of its
investigative operations at gun shows as part of ongoing investigations of
specific suspects whose illegal activity happened to occur at gun shows.
Other ATF investigative operations were aimed at widespread illegal
firearms activity occurring specifically at gun shows in certain cities,
states, or geographic regions.


       7 As discussed in this review, a blanket residency check is an investigative
technique that involves verifying the residences of all potential gun purchasers who
provide addresses that fall within a targeted geographical area to determine whether
they have provided false addresses on their federal firearms transaction documents.


U.S. Department of Justice                                                             iii
Office of the Inspector General
Evaluation and Inspections Division
      Based on the 121 operational plans that we reviewed for
investigative operations at gun shows, we found that ATF Special Agents
had complied with ATF Headquarters’ policies and procedures for
planning such operations.

      In addition, most gun show promoters and all state and local law
enforcement personnel we interviewed were supportive of ATF operations
at gun shows. All gun show promoters told us that they were concerned
about illegal gun sales and purchases at gun shows and that they
expected ATF to enforce federal gun laws. Only the two Richmond-area
gun show promoters whose shows were a focus of the congressional
hearings expressed concern about ATF’s activities at their gun shows.
State and local law enforcement personnel told us that ATF was an
important partner in fighting local gun crimes and that they support
ATF’s law enforcement activities at gun shows.

       The following sections provide additional details on these findings.

ATF conducted investigative operations at gun shows based on law
enforcement intelligence.

       ATF conducts operations at gun shows when law enforcement
intelligence indicates illegal firearms activity has occurred or is likely to
occur at specific gun shows. However, ATF has no specific enforcement
program directed at gun shows. ATF personnel we interviewed in 11 of
ATF’s 23 field divisions stated that they routinely analyze intelligence
regarding criminal activity and forward the results, including biweekly
crime reports, to various field offices. 8 The field offices use the
information, along with intelligence from local law enforcement agencies
and confidential informants, to develop investigative priorities, manage
resources, and plan operations, which sometimes include operations at
gun shows.

Although the number of operations at gun shows was low, the
operations resulted in multiple arrests, convictions, and firearms
seizures.

      From fiscal year (FY) 2004 through FY 2006, ATF opened
approximately 6,233 firearms trafficking investigations. During this
3-year period, ATF Special Agents conducted 202 operations at 195 gun

       8 We interviewed personnel in 12 divisions, but one division did not conduct
any investigative operations at gun shows during our review period, but had conducted
outreach (educational) programs at gun shows.


U.S. Department of Justice                                                          iv
Office of the Inspector General
Evaluation and Inspections Division
shows, or 3.3 percent of the estimated 6,000 gun shows held during this
period. 9 ATF’s operations at these gun shows led to 121 arrests,
resulting in 83 convictions. (Some cases are still pending, so their final
dispositions are unknown.) Additionally, ATF seized 5,345 firearms
during investigative operations related to these shows.

Seventy-seven percent of ATF’s investigative operations at gun
shows were covert operations that targeted specific individuals
suspected of firearms trafficking.

      Seventy-seven percent (156 of 202) of ATF’s investigative
operations at gun shows, during the 3-year period covered by our review,
targeted specific individuals suspected of a variety of firearms trafficking
crimes. 10 The offenses included convicted felons suspected of buying
guns; suspected straw purchasers; individuals selling firearms as a
business without a license; persons possessing prohibited firearms such
as unregistered machine guns and sawed-off shotguns; and FFLs that
were not documenting transactions or requesting background checks as
required by federal law. 11 When conducting specific target operations,
ATF Special Agents worked covertly, without the knowledge of the
suspects, promoters, or other gun show attendees.

Twenty-three percent of ATF’s investigative operations at gun shows
targeted widespread local or regional firearms trafficking at the
shows.

      Of the 202 investigative operations conducted by ATF at gun
shows, only 23 percent (46) targeted general firearms trafficking at the
shows. Further, only 6 of the ATF’s 23 field divisions – Columbus,
Houston, New Orleans, Phoenix, San Francisco, and Washington, D.C. –
conducted these types of operations. The operations were not part of
investigations of specific individuals, but rather were initiated based on

       9 Available estimates of the number of gun shows in the United States ranged

from 2,000 to 5,200 annually. We have used the most conservative estimate, 2,000, to
characterize the percentage of total gun shows at which ATF conducted investigative
operations.

       10 ATF also conducted six operations at gun shows in support of other law

enforcement agencies’ investigations.

       11  The National Firearms Act (NFA) of 1934, as amended, limits the availability
of machine guns, short-barreled shotguns, short-barreled rifles, sound suppressors
(silencers), and other similar weapons. The NFA requires a registry of “all NFA firearms
in the United States that were not under the control of the United States [government].”
(26 U.S.C. § 5845 (1986).)


U.S. Department of Justice                                                             v
Office of the Inspector General
Evaluation and Inspections Division
intelligence from law enforcement and other sources such as FFLs, that
various firearms trafficking crimes were occurring at gun shows in those
six divisions’ geographic areas of responsibility. The alleged offenses
included interstate and international firearms trafficking and widespread
straw purchasing of guns that were later diverted to convicted felons and
local and international gangs. The six field divisions usually conducted
operations at gun shows covertly; in association with national violent
crime reduction programs such as Project Safe Neighborhoods and
Violent Crime Impact Teams; and with support from other federal, state,
and local law enforcement agencies. 12

       According to the operational plans approved by the Resident Agent
in Charge (RAC), at two Richmond-area gun shows held during May 2005
and August 2005, the Washington Field Division used “a more overt
presence at the gun shows than in the past,” which included direct
contact at the gun shows with persons suspected of making straw
purchases. According to the plans, after action reports, and interviews
with the RAC and case agent, the focus of these two operations was on
preventing illegal purchases of firearms rather than on seizing firearms
after the sale.

ATF clarified its use of residency checks.

       One of the issues the House of Representatives was interested in
was the extent of ATF’s use of “blanket” residency checks. We found that
of the ATF’s 23 field divisions, the Washington Field Division was the
only one that used “blanket” residency checks to help identify firearms
purchasers who gave false addresses on their federal firearms
transaction forms. While ATF Special Agents have verified the addresses
of individuals suspected of criminal violations during the course of
investigations, the residency checks conducted by the Washington Field
Division as part of its 2004 and 2005 operations in Richmond were
unique because they targeted all residents of designated geographic
regions who applied to purchase firearms at local gun shows.

      During congressional testimony, the ATF Assistant Director for
Field Operations stated that “confirmation of addresses through
residency checks can be an important tool to ensure the lawfulness of


        12 Project Safe Neighborhoods is a nation-wide program for reducing gun crime

violence. The 93 U.S. Attorneys lead the task forces of local, state, and federal agency
participants. The Violent Crime Impact Team initiative was established by ATF to
reduce homicides and other firearms-related violent crime in 29 cities.



U.S. Department of Justice                                                             vi
Office of the Inspector General
Evaluation and Inspections Division
firearms transactions and to prevent straw purchases.” 13 However, after
the August 2005 Richmond gun show, ATF Headquarters officials
decided that area-wide or “blanket” residency checks of gun buyers,
while lawful, were not an effective practice. According to the Managing
Assistant U.S. Attorney for the Eastern District of Virginia, these
residency checks were resource-intensive and rarely resulted in
prosecutions for only providing a false address on federal firearms
transaction documents. In his January 30, 2006, memorandum to the
field, the ATF Assistant Director for Field Operations clarified the use of
residency checks by stating, “It is not ATF policy to conduct residence
checks without reasonable suspicion that criminal violations may exist.”

ATF Special Agents complied with ATF Headquarters’ policies and
procedures for planning operations at gun shows.

      We reviewed 121 operational plans for investigative operations at
gun shows conducted in FY 2004 through FY 2006 and found that 120
(99 percent) of the plans used the designated template and contained
information required by ATF for conducting the operations. For example,
the operational plans contained a description of targeted suspects and
vehicles, information describing the operational staging area, lists of
personnel and their roles and responsibilities, a tactical narrative
describing how the operation was to be conducted, and safety
information such as the location of the nearest hospital and command
post. One operational plan did not fully meet policy and procedures for
operational planning because it did not include key information such as
the location of the gun show and the command post.

Most gun show promoters and all state and local law enforcement
personnel we interviewed supported ATF operations at gun shows.

      All seven of the promoters that we interviewed told us that they
were concerned about illegal gun sales and purchases at gun shows and
expected ATF to enforce federal firearms laws at gun shows. Five of the
seven gun show promoters complimented ATF’s crime-fighting efforts at
gun shows in their areas and stated they had a positive relationship with
ATF. Two gun show promoters in the Richmond area complained to ATF,
Congress, and to us that they believed ATF operations at their shows in
2004 and 2005, especially the August 2005 show, had reduced
attendance and resulted in the harassment of gun buyers. One
promoter, who had testified at the congressional hearing on February 15,
2006, restated her concerns to us: that law enforcement agents

       13   Hearing transcript, p. 46.


U.S. Department of Justice                                               vii
Office of the Inspector General
Evaluation and Inspections Division
interrogated and intimidated potential customers, targeted women and
minorities as potential straw purchasers, visited the homes of buyers to
verify their addresses, and detained some gun buyers after they left the
gun show.

      Officials of two national organizations, one representing gun show
promoters and the other representing FFLs and gun enthusiasts, told us
that they had not heard any complaints from their members about ATF
operations at gun shows, other than those associated with the
Richmond-area shows. An official from a third national organization
representing gun owners told us that ATF Special Agents normally do a
good job but that, in his opinion, they had used unnecessarily aggressive
and harassing enforcement tactics at the Richmond-area gun shows.

       During our site visits to Richmond and to Reno, Nevada, we
interviewed state and local law enforcement officials who stated that ATF
was an important partner in fighting local violent crime and that they
supported ATF’s law enforcement activities at gun shows.

CONCLUSION

      ATF conducts investigative operations at gun shows as part of its
overall strategy to prevent illegal firearms trafficking. ATF has no specific
enforcement program directed at gun shows. The 202 investigative
operations at gun shows conducted during the 3-year period that we
reviewed predominantly focused on specific suspects, although 23
percent of the operations targeted general illegal firearms activity at
certain gun shows. We found that ATF’s decisions to conduct
investigative operations, including those in the Richmond area, were
based on significant law enforcement intelligence from a variety of
sources indicating that illegal activity was occurring or was about to
occur at a specific gun show.

       Based on our review of 121 operational plans for investigative
operations conducted at gun shows; interviews with ATF personnel from
11 field divisions, state and local law enforcement personnel, and
representatives from national firearms-related organizations; and an
analysis of complaints received by ATF from FY 2004 through FY 2006,
we found that, with the exception of some Richmond-area gun shows,
ATF conducted its investigative operations at gun shows covertly without
incident and without complaints from promoters, vendors, or the public.
After the controversy surrounding ATF’s activities at the August 2005
Richmond gun show, ATF issued guidance to its field divisions advising
that the use of blanket residency checks was not an effective practice


U.S. Department of Justice                                               viii
Office of the Inspector General
Evaluation and Inspections Division
and that residency checks should not be conducted without reasonable
suspicion that criminal violations may exist.




U.S. Department of Justice                                             ix
Office of the Inspector General
Evaluation and Inspections Division
                               TABLE OF CONTENTS


ACRONYMS

BACKGROUND ..................................................................................... 1

SCOPE AND METHODOLOGY OF THE OIG REVIEW..........................14

RESULTS OF THE REVIEW.................................................................20

        ATF conducted investigative operations at gun shows only
        when law enforcement intelligence indicated that significant
        illegal firearms activity was occurring or was likely to occur at
        those shows ................................................................................21

        ATF’s investigations seldom involved operations at gun shows.....21

        Although the number of operations at gun shows was
        low, the operations resulted in multiple arrests, convictions,
        and firearms seizures..................................................................23

        Most investigative operations at gun shows were covert
        operations that targeted specific individuals suspected of
        firearms trafficking .....................................................................24

        Twenty-three percent of ATF’s operations at gun shows
        targeted local or regional illegal firearms trafficking and
        only one field division conducted blanket residency checks .........25

                Columbus Field Division....................................................26

                Houston Field Division.......................................................27

                New Orleans Field Division ................................................29

                Phoenix Field Division .......................................................30

                San Francisco Field Division..............................................31

                Washington Field Division: The Richmond operations
                and residency checks.........................................................32




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
        ATF Special Agents complied with ATF Headquarters’ policy
        and procedures for planning operations at gun shows.................36

        Most gun show promoters and all state and local law
        enforcement personnel we interviewed supported ATF’s
        operations at gun shows .............................................................37

        Matters for Management Consideration .......................................40

CONCLUSION ......................................................................................43




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                  ACRONYMS



ASAC            Assistant Special Agent in Charge
ATF             Bureau of Alcohol, Tobacco, Firearms and Explosives
DTA             Division Tactical Advisor
FFL             Federal Firearms Licensee
FY              Fiscal Year
GCA             Gun Control Act of 1968
GS              Group Supervisor
NAAS            National Association of Arms Shows
NFA             National Firearms Act 1934
NICS            National Instant Criminal Background Check System
NRA             National Rifle Association
NSSF            National Shooting Sports Foundation
OIG             Office of the Inspector General
RAC             Resident Agent in Charge
SAC             Special Agent in Charge




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                 BACKGROUND


Purpose

       The Bureau of Alcohol, Tobacco, Firearms and Explosives’ (ATF)
activities at gun shows received widespread attention in February 2006
when Congress convened two hearings, on February 15 and 28, 2006,
to examine law enforcement techniques used by ATF agents at a series of
eight gun shows held in Richmond, Virginia, from May 2004 through
August 2005. 14

      Four witnesses testified at the first hearing and stated that ATF
agents used aggressive and harassing techniques at a gun show held on
August 13 and 14, 2005, at the Richmond International Raceway in
Virginia. Three of the witnesses were present at the gun show: the gun
show promoter, a gun salesman who worked for a federally licensed
dealer but represented himself as a private seller at the show, and a
federally licensed dealer who had exhibited his firearms collection for
sale. The fourth witness was a private investigator who was hired by the
National Rifle Association (NRA) to conduct an investigation of ATF
enforcement activity at the August 2005 gun show. 15 The witnesses
made the following allegations about ATF’s activities at the Richmond
gun show:

       •    The large on-site presence of ATF agents and local law
            enforcement officers intimidated prospective gun buyers and
            hurt attendance at the gun show.




       14 The Subcommittee on Crime, Terrorism, and Homeland Security, Committee

on the Judiciary, House of Representatives, conducted the hearings on February 15
and 28, 2006. (See Government Printing Office website for a full transcript of the
hearings, 109th Congress, Serial No. 109-123; or the U.S. House of Representatives
website, 109th Congress for Part I on February 15, 2006, and Part II on February 28,
2006, for the transcripts of the hearings.)

       15  According to NRA literature, the NRA is a non-profit group that was originally
formed in 1871 for the improvement of its members’ marksmanship. Today, the NRA
also defines its purposes as protecting and defending the right of individual citizens to
acquire, possess, transport, carry, transfer ownership, and enjoy the right to use arms.
The NRA also promotes public safety, conducts training in marksmanship, fosters
shooting sports, and promotes hunter safety.


U.S. Department of Justice                                                              1
Office of the Inspector General
Evaluation and Inspections Division
       •    Under ATF’s direction, local police officers visited the residences
            of certain prospective gun buyers and interrogated family
            members and neighbors about the buyers. The witnesses
            questioned the legality of these residency checks and also
            alleged that the checks made buyers wait much longer to
            purchase a gun.

       •    ATF agents targeted women and minorities as possible straw
            purchasers and singled them out for extra scrutiny. 16 The
            witnesses alleged that the targeting of women and minorities
            represented racial profiling, especially of African American
            women.

       •    ATF agents used coercive interrogation techniques, stopped gun
            buyers and seized their weapons without cause, and failed to
            apprise individuals of their rights against self-incrimination and
            to have legal counsel.

       At the second congressional hearing, ATF officials and local law
enforcement agencies involved in operations at the Richmond-area gun
shows responded to the allegations. Representatives from ATF, the City
of Richmond Police Department, and Henrico County Division of Police
made the following points during their testimony about their agencies’
participation in ATF’s operations at the gun shows. 17

       •    ATF maintained a presence at the Richmond gun shows
            because many of the guns recovered by the Richmond Police
            Department in connection with violent crimes had been
            purchased illegally (including through straw purchasers) at
            local gun shows. Also, individuals who purchased the firearms
            illegally at Richmond-area gun shows did not always provide
            accurate residence information at the time of purchase, as
            required by law.


       16 ATF defines a straw purchase as “the acquisition of a firearm(s) from an FFL
by an individual (the “straw”) done for the purpose of concealing the identity of the true
intended receiver of the firearms.” (ATF Order 3310.4B, Firearms Enforcement
Program, Chapter K, Section 143(ee).)

       17   The following individuals testified at the second hearing: the ATF Assistant
Director for Field Operations, a Major in the City of Richmond Police Department, and
the Deputy Chief of Police for the Henrico County Division of Police. Henrico County,
Virginia, is adjacent to the City of Richmond.


U.S. Department of Justice                                                                 2
Office of the Inspector General
Evaluation and Inspections Division
            •    For the gun shows in question, especially the August 2005 gun
                 show at the Richmond International Raceway, ATF
                 acknowledged that some investigative techniques were not
                 implemented in a manner consistent with ATF best practices.
                 ATF determined that it “could have done better by having the
                 law enforcement command post and briefings offsite of the gun
                 show, by not utilizing a letter to convey possible violations of
                 law when guns were taken into custody, and by more
                 thoroughly explaining the parameters for conducting residence
                 checks.” 18 An ATF official testified that subsequent to the
                 August 2005 Richmond gun show, ATF issued a memorandum
                 to its field divisions and offices “reminding employees of both
                 policy and best practices related to gun show investigations.” 19
                 He also stated that the “focus at the Richmond-area gun shows
                 was on indicators of criminal activity, not on the color of skin or
                 the gender of potential suspects. . . . [T]he allegations of racial
                 profiling have no basis in fact. ATF does not condone or engage
                 in racial profiling of any sort and we strictly adhere to the
                 Attorney General’s guidelines in this regard.” 20

            •    An official of the City of Richmond Police Department stated
                 that “Richmond has been plagued with issues surrounding
                 violent crime and use of firearms associated with those
                 crimes.” 21 The Department supported the operations at the gun
                 shows “because information led us to believe that there were
                 illegal transactions occurring at local gun shows. . . . [W]e felt
                 we could make an impact on those firearms that are being used
                 for illegal purposes prior to them being used [in a criminal]
                 act.” 22 According to the police official, the Department had no
                 intent to deny any citizen the ability to lawfully purchase a
                 firearm, but rather to prevent the acquisition of a firearm in an

       18 Hearing transcript, p. 34, Testimony of Assistant Director for Field

Operations, ATF.

       19 Hearing transcript, p. 47, Prepared Statement of ATF’s Assistant Director for

Field Operations and the memorandum issued by the Assistant Director on January 30,
2006, Reminder of Gun Show Policies and Practices.

            20   Hearing transcript, p. 43, ibid.

            21   Hearing transcript, p. 55, Testimony of City of Richmond Police Department
official.

            22   Hearing transcript, p. 55, ibid.


U.S. Department of Justice                                                                    3
Office of the Inspector General
Evaluation and Inspections Division
            illegal manner, and thereby reduce crime in the City of
            Richmond.

       •    Henrico County police officers conducted only six residency
            checks of addresses in the county. The officers had 20 minutes
            from the time they were instructed by personnel in the
            command post to verify an address until they had to relay the
            results back to the command post and, as a result, Henrico
            officials said no purchases by Henrico County residents were
            denied or delayed due to the checks. The Henrico County
            Division of Police also assigned additional plainclothes officers
            to assist ATF, the City of Richmond Police Department, and the
            Virginia State Police inside the gun show by monitoring firearms
            transactions.

      Subsequent to the hearings, the House of Representatives passed
H.R. 5092, “Bureau of Alcohol, Tobacco, Firearms and Explosives
Modernization and Reform Act of 2006.” The bill included language
requesting that the Office of the Inspector General (OIG) assess how ATF
conducts “the gun show enforcement program and blanket residency
checks of prospective and actual firearms purchasers.” 23 The bill was
subsequently forwarded to the Senate for consideration, but no vote was
taken by the Senate in the 109th Congress, and the proposed legislation
was not enacted.

     In light of the congressional interest in this issue, the OIG
conducted this review to examine the policies, procedures, and oversight
mechanisms that guide ATF’s investigative operations at gun shows.

General Characteristics of Gun Shows

       ATF defines a gun show as any exhibition of firearms, ammunition,
and accessory items at a fairground, convention hall, or similar setting
such as a local armory. The shows are usually publicized as gun shows
or in connection with another lawful activity, such as a knife and gun
show. The shows may be sponsored by commercial promoters or
organizations of firearms collectors and enthusiasts. Most shows are
open to the public for an admission fee. Gun shows provide a forum to
display firearms, ammunition, and accessories for trade, purchase, or
sale, or they demonstrate the competitive shooting or other sporting uses

       23The House of Representatives passed H.R. 5092 (House Report 109-672) on
September 26, 2006, on a roll call vote of 277-131.


U.S. Department of Justice                                                         4
Office of the Inspector General
Evaluation and Inspections Division
of firearms. 24 The types of firearms offered for sale at gun shows include
new and used handguns, semiautomatic assault weapons, shotguns,
rifles, and curio or relic firearms.

        Gun shows provide a venue for the legal sale and exchange of
firearms by federal firearms licensees (FFL) who are licensed by the
federal government through ATF to manufacture, import, or deal in
firearms. Such shows also are a venue for private sellers who buy and
sell firearms to “enhance a personal collection,” or for a “hobby,” or who
“sell all or part of a personal collection,” and therefore do not require a
federal firearms license. 25 Federal laws do not specifically regulate gun
shows, although federal firearms laws apply to both FFLs and private
sellers at gun shows. For example, FFLs operating at gun shows are
required to obtain and keep basic information on firearms transactions
and to request federal, and sometimes state, background checks on
persons seeking to obtain firearms from them by purchase or
exchange. 26 Private sellers, unlike FFLs, are under no legal obligation to
ask purchasers whether they are legally eligible to buy guns.
Furthermore, private sellers, unlike FFLs, are not required to create and
keep transaction records or to request background checks on
purchasers. This mix of licensed and private firearms sellers – selling
guns side by side – makes gun shows a unique forum for gun sales.


       24  ATF Order 3310.4B, Firearms Enforcement Program, Chapter K, Firearms
Trafficking, Sections 156, 157, and 158, provides ATF policy for gun show
investigations.

       25 Both FFLs and private (unlicensed) sellers of firearms obtain the right to sell
firearms at gun shows from the Firearm Owners’ Protection Act of 1986, P.L. No. 99-
308, 100 Stat. 449 (1986), as amended.

       26 Background checks on individuals who purchase firearms from an FFL have

been required since passage of the Brady Handgun Violence Prevention Act (Brady Act)
in November 1993. The permanent provisions of the Brady Act required the Attorney
General to establish the National Instant Criminal Background Check System (NICS).
The NICS provides any FFL an immediate contact for information as to whether a
prospective purchaser is a “prohibited person” under 18 U.S.C. § 922 (g) or (n) or state
law.

        The Federal Bureau of Investigation’s Criminal Justice Information Services
Division manages the NICS Section, which provides background checks requested by
FFLs in 30 states, 5 U.S. territories, and the District of Columbia. Thirteen states have
agencies acting on behalf of the NICS in a full point-of-contact capacity, and eight
states are currently sharing responsibility with the NICS Section by acting as partial
point-of-contact states for conducting background checks required under the Brady
Act.


U.S. Department of Justice                                                                  5
Office of the Inspector General
Evaluation and Inspections Division
       Gun shows generate revenue for the promoters through the rental
of display tables to vendors and by charging admission to the public.
Gun show promoters generally charge vendors from $20 to $145 per
table and from $200 to $400 per booth to display their inventories.
Public admittance fees for the shows range from $5 to $50. For the
largest gun shows, promoters publicize the shows through a variety of
media, including publications covering the interests of gun owners and
hobbyists, newspapers, radio, television, and the Internet. Gun shows
are usually held on weekends and can draw from 2,500 to 15,000 people
per 2-day show. Larger gun shows may result in sales of over 1,000
guns in one weekend.

      We found no definitive source for the number of gun shows held in
the United States annually. Estimates ranged from 2,000 to 5,200 gun
shows annually.




U.S. Department of Justice                                            6
Office of the Inspector General
Evaluation and Inspections Division
ATF’s Firearms Mission
                                                       The National Firearms Act
       ATF’s mission is to
conduct criminal investigations,              The NFA limits the availability of machine
regulate the firearms and                     guns, short-barreled shotguns, short-
explosives industries, and assist             barreled rifles, sound suppressors
                                              (silencers), and other similar weapons,
other federal, state, and local law
                                              which were often used by gangsters during
enforcement agencies in                       the Prohibition years when the NFA was
preventing terrorism, reducing                enacted. The NFA imposes a tax on the
violent crime, and protecting the             manufacture, import, and distribution of
public. 27 ATF enforces the                   NFA weapons and requires a registry of “all
                                              NFA firearms in the United States that were
provisions of federal firearms
                                              not under the control of the United States
laws, including the National                  [government].” (26 U.S.C. § 5845 (1986).)
Firearms Act of 1934 (NFA) and
the Gun Control Act of 1968                               The Gun Control Act
(GCA).
                                              Congress enacted the GCA to “keep firearms
                                              out of the hands of those not legally entitled
      In carrying out its mission,            to possess them . . . and to assist law
ATF leads or supports a broad                 enforcement authorities in the States and
range of firearms investigations,             their subdivisions in combating crime.” The
which are divided generally into              GCA cites nine categories of persons
                                              prohibited from possessing firearms:
three categories:
                                              (1) persons convicted in any court of a crime
                                              punishable by imprisonment for a term
       •    Investigations of                 exceeding 1 year; (2) fugitives from justice;
            persons who are                   (3) drug users or addicts; (4) persons
            prohibited by law from            adjudicated mental defectives or committed
                                              to mental institutions; (5) illegal aliens;
            possessing firearms;              (6) persons dishonorably discharged from
                                              the Armed Forces; (7) persons who renounce
       •    Investigations of                 their U.S. citizenship; (8) persons under
            persons possessing                court-ordered restraints related to
            unregistered NFA                  harassing, stalking, or threatening an
                                              intimate partner or child of such intimate
            weapons; and                      partner; and (9) persons convicted of
                                              misdemeanor domestic violence.
       •    Investigations of                 (18 U.S.C. § 922(g).)
            persons illegally
            trafficking in firearms. 28

       27   Mission statement in ATF’s Strategic Plan, Fiscal Years 2004-2009.

       28   While ATF Special Agents generally take the lead in major firearms trafficking
investigations, they also have played a support role. For example, when state or local
police officers initiate an investigation of drug or gambling activities and find that
firearms play a significant role in supporting those activities, they will frequently seek
ATF’s expertise. In those cases in which an investigation leads to a source of illegal
                                                                                      (Cont’d)

U.S. Department of Justice                                                                  7
Office of the Inspector General
Evaluation and Inspections Division
When an investigation produces information that illegal firearms-related
activity may occur at a gun show, ATF may decide to conduct an
operation at the gun show to facilitate the investigation.

       ATF also engages in activities at gun shows to educate FFLs and
the public about firearms laws. According to ATF statistics, during fiscal
year (FY) 2004 through FY 2006, 13 of ATF’s 23 field divisions conducted
62 outreach (educational) programs at gun shows. For example, ATF
participates in a joint program with the National Shooting Sports
Foundation called, “Don’t Lie for the Other Guy,” which is a national
campaign designed to train FFLs to better identify and deter potential
straw purchases and to educate the public on the consequences of
purchasing a firearm for someone who cannot purchase it legally.
Persons prohibited by law from acquiring a gun will sometimes attempt
to use a straw purchaser to circumvent the law. The straw purchaser
makes a false statement on the ATF Form 4473, Firearms Transaction
Record, which asks about the identity of the actual purchaser. Such
false statements are punishable by a fine of up to $250,000 and up to 10
years in prison.

     In an educational capacity, ATF officials said its personnel attend
gun shows to:

       •   Promote a better understanding of the federal firearms laws as
           they apply to gun shows and the duty of ATF to enforce those
           laws,

       •   Provide gun show owners and promoters with advisories
           outlining the federal firearms laws as they apply to gun shows
           and request that they post these advisories in conspicuous
           locations in the gun show, and

       •   Staff an information booth to provide gun show patrons with
           information on federal firearms laws and regulations to promote
           compliance.




firearms in another state, ATF may be asked for support because it can cross state lines
in conducting interstate investigations.


U.S. Department of Justice                                                            8
Office of the Inspector General
Evaluation and Inspections Division
ATF’s Firearms Enforcement Policies

      ATF policies, procedures, and oversight mechanisms for
conducting firearms-related investigations – including those that may
require ATF’s presence at gun shows – are set forth primarily in ATF
Order 3310.4B, Firearms Enforcement Program (last amended in 2001
when ATF was part of the Department of Treasury). 29 In that Order, ATF
defines its overall policy as the enforcement of the GCA and NFA and
assigns priority to investigations that have the greatest potential to
prevent crime and violence and to disrupt illegal firearms activity, such
as:

       •    Armed drug traffickers and their organizations and violent
            criminals actively involved in violent criminal activities,

       •    Criminal firearms traffickers who are significant firearms
            sources for other criminals,

       •    The illicit movement of firearms into and out of the United
            States, and

       •    Illegal acquisition of firearms by prohibited persons through the
            knowing falsification of firearms records or straw purchases. 30

       Generally, ATF’s approach to dealing with firearms trafficking is
determined at the field division level by the Special Agent in Charge (SAC)
of the division. (See Figure 1 on the next page for the organizational
structure of a typical ATF field division.) SACs and their management
teams determine where to focus ATF’s efforts and resources based on the
annual planning process the field divisions conduct in conjunction with
ATF Headquarters. ATF policy requires that each SAC designate one
Assistant SAC (ASAC) in the division to be the Firearms Trafficking
Coordinator. According to Order 3310.4B, the Firearms Trafficking
Coordinator should continually assess illegal firearms trafficking trends



        Under the Homeland Security Act of 2002, ATF transferred from the
       29

Department of the Treasury to the Department of Justice on January 24, 2003.

       30 Firearms trafficking investigations can include individuals engaged in straw
purchasing; illegal dealing by an unlicensed firearms seller; FFLs suspected of selling
guns without the required paperwork or background checks or selling guns to
prohibited persons; and persons who are prohibited by law from possessing firearms
such as felons, illegal aliens, and drug traffickers.


U.S. Department of Justice                                                                9
Office of the Inspector General
Evaluation and Inspections Division
within the division and determine the proper course of action to address
the problem.

              Figure 1: Structure of a Typical ATF Field Division




     Source: ATF




U.S. Department of Justice                                            10
Office of the Inspector General
Evaluation and Inspections Division
       According to ATF officials, the field divisions assess firearms
trafficking trends using intelligence provided by ATF Headquarters, ATF
regional and field intelligence organizations, and intelligence gathered
locally at the group or field office level. Such local intelligence may come
from ATF Industry Operations Investigators who enforce ATF regulations
through inspections of FFLs, state and local law enforcement agencies,
FFLs, defendants facing trial, confidential informants, or ongoing ATF
investigations.

       After considering intelligence from a variety of sources, staffing
requirements, and available resources, the SAC sets the investigative
priorities for the field division. According to ATF policy, the SAC’s
decisions should reflect a focus on those areas where the division can
achieve the maximum effect on crime in line with overall ATF priorities.
This may include ATF investigations at gun shows when intelligence
indicates that criminal activity may be occurring.

      ATF Order 3310.4B, Chapter K, contains three sections that
provide ATF policy and guidelines for conducting investigations at gun
shows. ATF policy allows for criminal investigations at gun shows of
those persons who are engaged in criminal activity that would result in
prohibited persons obtaining firearms. ATF guidelines require that its
Special Agents obtain the approval of their Resident Agent in Charge
(RAC) or Group Supervisor before conducting surveillance and opening
an investigation at a gun show and SAC approval for conducting
sensitive enforcement activities at gun shows. According to Chapter K,
the SAC is the approving official for closing an investigation after all
investigative activity has been concluded at the gun show and for
recommending cases for prosecution.

Supplemental Headquarters Guidance for Gun Shows

       ATF’s Assistant Director for Field Operations issued a
memorandum on January 30, 2006, Reminder of Gun Show Policies and
Practices, that supplements and reinforces the provisions for gun show
operations found in Chapter K of Order 3310.4B. The memorandum
provides direction regarding contact with gun show promoters about gun
show operations, the use of recorded surveillance, pre-operations
briefings for all assigned personnel, the appropriate location of command
posts for gun show operations, retention of information relating to
firearms purchasers, the difference between FFLs and private firearms
sellers, the appropriate way to use residency checks, and clarification
that SACs have discretion to enforce federal firearms laws at gun shows
in a manner that addresses specific issues in their area.

U.S. Department of Justice                                                11
Office of the Inspector General
Evaluation and Inspections Division
Requirements for Planning Investigative Operations at Gun Shows

       In addition to Order 3310.4B, Firearms Enforcement Program, ATF
has policy governing special agent planning for “significant enforcement
activities” at gun shows, such as serving search and arrest warrants,
making undercover buys and buy-busts, and conducting special
undercover operations. The policy is contained in ATF Order 3210.1A,
Operational Planning, which provides detailed requirements and
procedures for planning, executing, overseeing, and reporting these types
of operations. The guidance requires Special Agents to prepare an
operational plan for the enforcement activities listed above, wherever
they occur, including gun shows. 31

      The purpose of an operational plan is to avoid risk to both Special
Agents and the public by planning the investigative operation prior to its
implementation. ATF agents use a specific operational planning form
(ATF Form 3210.7) to record information such as the date and time of
the operation; personnel involved; description of the specific target, if
applicable; objective; and tactical narrative.

      The Group Supervisor or RAC who will lead the operation reviews,
signs, and dates the operational plan. Plans involving high-risk or
sensitive tactics are forwarded to the Division Tactical Advisor for review
and comment. 32 The SACs and ASACs we interviewed stated that
operational plans for investigative operations at gun shows are reviewed
by Division Tactical Advisors. While the Division Tactical Advisor does
not approve operational plans, the advisor can help identify tactical or
other issues that must be resolved before the plans can be executed. The
SAC, or the ASAC acting as the SAC’s delegate, has final approval
authority for any operation involving significant enforcement activity.
Copies of the completed ATF Forms 3210.7 are kept at both the field or
group office and the field division office. Figure 2 shows ATF’s process
for approving investigative operations at gun shows.




       31 SACs, RACs, and Group Supervisors also may require the preparation of an
operational plan for any other enforcement activity.

       32  According to ATF Order 3210.1A, Operational Planning, p. 7, the Division
Tactical Advisor “is a Special Agent assigned to a field division who serves as the
principal tactical advisor to the SAC on issues and activities relating to law enforcement
operational tactics, readiness, techniques, strategies, equipment, training etc.”


U.S. Department of Justice                                                             12
Office of the Inspector General
Evaluation and Inspections Division
Figure 2: ATF Approval Process for Investigative Operations at Gun Shows




Source: ATF Orders 3210.1A and 3310.4B


U.S. Department of Justice                                           13
Office of the Inspector General
Evaluation and Inspections Division
            Scope and Methodology of the OIG Review


      This review focused on ATF’s policies, procedures, and oversight
mechanisms for ATF investigative operations at gun shows. We reviewed
ATF’s operations at gun shows conducted from FY 2004 through
FY 2006. We conducted fieldwork from September 2006 through March
2007 that included in-person and telephone interviews and site visits to
selected ATF field divisions and offices that conducted investigative
operations and outreach programs at gun shows, data analyses,
document reviews, and viewing undercover footage taken during
operations at gun shows. In addition, the OIG team attended gun shows
in two different cities.

Interviews

      We conducted interviews with 73 officials and other personnel from
ATF Headquarters, 12 field divisions, and 7 field offices; U.S. Attorneys’
Offices; state and local law enforcement agencies; and national
organizations representing the firearms industry, gun enthusiasts, and
gun show promoters. 33 Table 1 lists the sites visited or contacted and
the individuals we interviewed. We tried to interview several FFLs, but
they were reluctant to speak with us. As a result, we spoke with the
senior vice president of the National Sports Shooting Foundation whose
subsidiary organization, the National Association of Firearms Retailers,
represents approximately 50,000 FFLs.




       33One of the 12 divisions did not conduct any investigative operations at gun
shows during our review period, but had conducted outreach (educational) programs at
gun shows.


U.S. Department of Justice                                                       14
Office of the Inspector General
Evaluation and Inspections Division
                Table 1: Interviews Conducted by the OIG


Organization               Site                       Individuals Interviewed

ATF              Headquarters,            •   Assistant Director, Office of Field Operations
                 Washington, D.C.         •   Deputy Assistant Directors, Office of Field
                                              Operations (one Regional and one for Industry
                                              Operations)
                                          •   Deputy Chief, Field Management Staff, Office of
                                              Field Operations
                                          •   Senior Counsel, Office of Field Operations
                                          •   Associate Chief Counsel, Disclosure and
                                              Forfeiture Division, Office of Chief Counsel
                                          •   Associate Chief Counsel, Firearms, Explosives
                                              and Arson Division, Office of Chief Counsel
                                          •   Senior Attorney, Firearms, Explosives and Arson
                                              Division, Office of Chief Counsel
                                          •   Deputy Assistant Director, Office of Enforcement
                                              Programs and Services
                                          •   Acting Deputy Chief, Firearms Programs
                                              Division, Office of Enforcement Programs and
                                              Services
                                          •   Firearms Industry Technical Advisor, Firearms
                                              Programs Division, Office of Enforcement
                                              Programs and Services
                                          •   Chief, Office of Public Affairs
                 Field Divisions:
                 Baltimore                •   Current and former Special Agents in Charge
                 Charlotte                    (SAC) (11)
                 Columbus                 •   Assistant Special Agents in Charge (ASAC) (8)
                 Houston                  •   Directors of Industry Operations (5)
                 Kansas                   •   Field Division Counsel (2)
                 New Orleans
                 Philadelphia
                 Phoenix
                 San Francisco
                 Seattle
                 Tampa
                 Washington, D.C.
                 Field and Group
                 Offices:
                 Falls Church, Virginia   •   Current and former Resident Agents in Charge
                 McAllen, Texas               (RAC) (7)
                 New Orleans, Louisiana   •   Group Supervisors (2)
                 Norfolk, Virginia        •   Area Supervisor
                 Reno, Nevada             •   Special Agents (2)
                 Richmond, Virginia       •   Intelligence Research Specialist
                 Salt Lake City, Utah




U.S. Department of Justice                                                       15
Office of the Inspector General
Evaluation and Inspections Division
Organization               Site                      Individuals Interviewed


U.S.             Arizona                •   Deputy Chief, Criminal Division, Phoenix Office
Attorneys’                              •   Assistant U.S. Attorney, Organized Crime Drug
Offices                                     Enforcement Task Force, Tucson Office

                 Nevada                 •   Chief, Reno Office

                 Eastern District of    •   1st Assistant U.S. Attorney and Chief, Criminal
                 Louisiana                  Division
                                        •   Violent Crime Unit Supervisor

                 Eastern District of    •   Managing Assistant U.S. Attorney, Richmond
                 Virginia                   Division


State and        Richmond, Virginia     •   Major, Virginia State Police
Local Law                               •   Manager, Firearms Transaction Center, Virginia
Enforcement                                 State Police
Agencies                                •   Sergeant, Virginia State Police
                                        •   Major, City of Richmond Police Department
                                        •   Deputy Chief of Police, Henrico County Division
                                            of Police
                                        •   Captain, Henrico County Division of Police


                 Reno, Nevada           •   Assistant Sheriff, Washoe County



National Rifle   Fairfax, Virginia      •   Legal Counsel, NRA-Institute for Legislative
Association                                 Action
(NRA)


National         Utah                   •   President (who also is the promoter of
Association of                              Crossroads of the West gun shows)
Arms Shows,
Inc. (NAAS)


National         Newtown, Connecticut   •   Senior Vice President and General Counsel
Shooting
Sports
Foundation




U.S. Department of Justice                                                      16
Office of the Inspector General
Evaluation and Inspections Division
Organization               Site                   Individuals Interviewed


Promoters by     Alabama              •   Big Reno Show
Location and     Arizona              •   C&E Gun Shows
Trade Name       California           •   Crossroads of the West (who also is the President
                 Colorado                 of the NAAS)
                 Louisiana            •   Missouri Valley Arms Collectors Association
                 Mississippi          •   Saxet Trade Shows
                 Missouri             •   Showmasters
                 Nevada               •   Southern Gun and Knife Shows
                 North Carolina
                 Texas
                 Utah
                 Virginia
                 West Virginia


Gun Shows Attended

      We observed gun shows in Reno, Nevada, on November 18, 2006,
and Richmond, Virginia, on December 2, 2006. Both gun shows have an
established presence in their regions and occur several times a year.
ATF had conducted investigative operations at these gun shows on
previous occasions.

Data Analyses and Document Reviews

       We reviewed firearms legislation and regulations; ATF’s firearms
enforcement policies and procedures; investigative reports; arrest,
prosecution, conviction, and gun seizure data; congressional testimony;
news articles; and reports related to ATF investigative operations at gun
shows, outreach programs, and firearms trafficking. We also reviewed
121 ATF operational plans for operations conducted at gun shows. Table
2 lists the number of operational plans we reviewed in each ATF field
division. The plans targeted either specific suspects or general illegal
firearms activity at gun shows.




U.S. Department of Justice                                                    17
Office of the Inspector General
Evaluation and Inspections Division
                Table 2: Operational Plans Reviewed for
               ATF Investigative Operations at Gun Shows

                                  “Specific        “General           Total
                                  Suspect”          Illegal       Investigative
          Field Divisions
                                    Plans      Activity” Plans     Operational
                                 Reviewed*         Reviewed           Plans
      1.   Charlotte                       17                0                 17
      2.   Columbus                         5                4                  9
      3.   Houston                        12                 2                 14
      4.   Kansas City                      7                0                  7
      5.   New Orleans                      1                5                  6
      6.   Phoenix                         21               15                 36
      7.   San Francisco                    0                6                  6
      8.   Seattle                          7                0                  7
      9.   Tampa                            9                0                  9
      10. Washington, D.C.                  0               10                 10
      Total Reviewed                      79                42                121
      *The number of operational plans we reviewed does not necessarily
      correspond to the number of investigative operations conducted by ATF.
      Some operations do not require a plan, such as simple surveillance. Other
      operations may have multiple plans – one for each specific suspect at the
      same gun show. Two field divisions are not listed. The Baltimore Field
      Division had no investigative operations at gun shows during our review
      period, but had conducted outreach programs at gun shows. The
      Philadelphia Field Division conducted seven operations that were limited to
      surveillance at gun shows.


Methodology for Estimating the Number of Annual Gun Shows

       ATF does not keep records on the number of gun shows held in the
United States, and we were unable to determine an exact number from
other sources. We reviewed several estimates of the number of gun
shows held annually, which ranged from 2,000 to 5,200. The President
of the National Association of Arms Shows was the source of the highest
estimate of 5,200 shows and told us that the estimate was based on the
assumption that approximately 100 gun shows were held every weekend
throughout the year, but, other than professional judgment, no other
support was provided for his assumption. Sources for the lower estimate
of 2,000 gun shows per year, which included ATF, said they based their
estimate on a count of the number of shows advertised in the Gun and
Knife Show Calendar, a popular industry trade publication that is
published quarterly.



U.S. Department of Justice                                                          18
Office of the Inspector General
Evaluation and Inspections Division
      The President of the National Association of Arms Shows told us
that the Calendar is the most comprehensive listing of gun shows held
throughout the country. We checked the magazine’s issues for FY 2006
and found 1,551 advertisements for shows that included the word “gun”
in the advertisement. However, not all shows are advertised in the
Calendar, many more shows are now being advertised on the Internet
such as on promoter and interest group websites, and some shows are
advertised more than once. Because we were unable to determine the
exact number of gun shows held per year, in this review we used the
most conservative estimate available – 2,000 shows per year or
approximately 6,000 shows for the 3-year period that we reviewed,
FY 2004 through FY 2006.

ATF’s Comments on the Draft Report

      We provided copies of the draft report to ATF for review on May 29,
2007. On June 21, 2007, ATF provided technical clarifications and
updated information on certain field office operations described in the
report, and we revised the report where appropriate.




U.S. Department of Justice                                             19
Office of the Inspector General
Evaluation and Inspections Division
                       RESULTS OF THE REVIEW


       In FY 2004 through FY 2006, ATF conducted
       investigative operations at 195 of the estimated 6,000
       gun shows held during that period. Those operations
       resulted in 121 arrests, 83 convictions, and 5,345
       firearms seizures.     Seventy-seven percent of ATF’s
       investigative operations at gun shows were conducted
       covertly and targeted specific individuals suspected of a
       variety of firearms trafficking crimes.       Twenty-three
       percent of ATF’s investigative operations at gun shows
       targeted regional illegal firearms activity. Only one field
       division conducted blanket residency checks during
       several gun shows, and ATF Headquarters has since
       clarified that residency checks should only be used when
       there is reasonable suspicion that a criminal violation
       exists.

       Our review of 121 ATF operational plans for investigative
       operations at gun shows conducted by 10 field divisions
       found that ATF conducted these operations when law
       enforcement intelligence indicated that significant
       illegal firearms activity was occurring or was likely to
       occur at those shows. Consequently, ATF Special Agents
       seldom conducted operations at gun shows as part of
       their investigations into firearms trafficking activity.
       Based on the 121 operational plans, ATF Special Agents
       complied with ATF Headquarters’ procedures for
       operational planning.

       Five of the seven gun show promoters interviewed for
       this review said they supported ATF operations at their
       gun shows.      Two promoters of gun shows in the
       Richmond,     Virginia,   area  alleged   that   certain
       investigative techniques used by ATF Special Agents and
       a larger than normal on-site presence of ATF Special
       Agents and other state and local law enforcement
       officers at their shows during FY 2004 and FY 2005
       intimidated gun buyers and hurt show attendance. ATF
       and other law enforcement officials involved in the
       Richmond operations denied charges that they harassed
       potential gun buyers or other gun show attendees.


U.S. Department of Justice                                           20
Office of the Inspector General
Evaluation and Inspections Division
ATF conducted investigative operations at gun shows only when law
enforcement intelligence indicated that significant illegal firearms
activity was occurring or was likely to occur at those shows.

       We found that ATF does not have a formal gun show enforcement
program, but conducts investigative operations at gun shows when it has
law enforcement intelligence that illegal firearms activity has occurred or
is likely to occur at specific gun shows. We reviewed plans for 121
investigative operations at gun shows conducted during FY 2004 through
FY 2006 by 10 of ATF’s 23 field divisions, and all the plans showed that
ATF agents had law enforcement intelligence that supported the conduct
of the operations. 34 ATF personnel we interviewed at 11 ATF field
divisions stated that they routinely analyzed intelligence regarding illegal
firearms activity and forwarded the results of their analyses to their field
offices. The analyses included assessments of the initial sources (i.e.,
FFLs) of guns recovered in crimes based on national crime gun trace
data.

       At the field offices, ATF Special Agents and Intelligence Research
Specialists we interviewed said they used the divisions’ weekly reports
about crime gun traces and intelligence from other law enforcement
agencies and confidential informants to identify local trends concerning
crime guns and indicators of firearms trafficking. From their analyses,
field offices develop investigative priorities, manage resources, and plan
investigative operations, which sometimes include operations at gun
shows. We provide examples of actual intelligence that was the basis for
conducting investigative operations at gun shows in the summaries of
operations presented on pages 26 through 36.

ATF’s investigations seldom included operations at gun shows.

      From FY 2004 through FY 2006, ATF opened approximately 6,233
firearms trafficking investigations. During that 3-year period, ATF
Special Agents conducted 202 operations at 195 of an estimated 6,000
gun shows held nationwide – or about 3.3 percent of the shows. Table 3
shows the number of investigative operations at gun shows conducted by
each field division.

       34  Two of the 12 ATF field divisions we reviewed did not have operational plans
related to gun shows. The Baltimore Field Division had no investigative operations at
gun shows during our review period, but had conducted outreach (educational)
programs at gun shows. The Philadelphia Field Division conducted seven operations
that were limited to surveillance at gun shows; operations to conduct only surveillance
do not require operational plans.


U.S. Department of Justice                                                           21
Office of the Inspector General
Evaluation and Inspections Division
             Table 3: Investigative Operations Conducted at
                    195 Gun Shows by Field Division,
                        FY 2004 through FY 2006

                               Investigative Operations

                              Specific     General Illegal
        Field Division                                           Total
                              Suspects       Activity

      1.    Atlanta                    2               0                   2
      2.    Baltimore                  0               0                   0
      3.    Boston                     0               0                   0
      4.    Charlotte                 17               0                  17
      5.    Chicago                    0               0                   0
      6.    Columbus                  11               4                  15
      7.    Dallas                     5               0                   5
      8.    Detroit                    8               0                   8
      9.    Houston                    8               3                  11
      10.   Kansas City               21               0                  21
      11.   Los Angeles                0               0                   0
      12.   Louisville                 2               0                   2
      13.   Miami                     20               0                  20
      14.   Nashville                  5               0                   5
      15.   New Orleans                1               6                   7
      16.   New York                   0               0                   0
      17.   Philadelphia               7               0                   7
      18.   Phoenix                   21              15                  36
      19.   St. Paul                   5               0                   5
      20.   San Francisco              0               6                   6
      21.   Seattle                    9               0                   9
      22.   Tampa                      9               0                   9
      23.   Washington                 5              12                  17
                                    156               46                 202
      Totals
                                  (77%)            (23%)
      Note: At seven gun shows, ATF conducted more than one operation.
      Source: ATF




U.S. Department of Justice                                                     22
Office of the Inspector General
Evaluation and Inspections Division
Although the number of investigative operations at gun shows was
low, the operations resulted in multiple arrests, convictions, and
firearms seizures.

       As a result of the 202 investigative operations undertaken at 195
gun shows, ATF made 121 arrests that resulted in 83 convictions. (Some
cases are still pending, so their final disposition is unknown.)
Additionally, ATF seized 5,345 firearms during these investigative
operations. 35 Table 4 shows the breakdown of the results by field
division.

    Table 4: Results of ATF’s Investigative Operations at 195 Gun
                Shows in FY 2004 through FY 2006

               Field Division      Arrests         Convictions          Seizures
     1.        Atlanta                        2                   1              3
     2.        Baltimore                      0                   0              0
     3.        Boston                         0                   0              0
     4.        Charlotte                      3                   2            344
     5.        Chicago                        0                   0              0
     6.        Columbus                       7                   1              8
     7.        Dallas                         1                   1             20
     8.        Detroit                        0                   0              8
     9.        Houston                       27                  17            196
     10. Kansas City                          1                   0          2,534
     11. Los Angeles                         0                    0                0
     12. Louisville                           0                   0                2
     13. Miami                               5                    4            790
     14. Nashville                           4                    4            359
     15. New Orleans                          9                   6             14
     16. New York                             0                   0                0
     17. Philadelphia                        0                    0                4
     18. Phoenix                             13                   3            221
     19. San Francisco                    13                     11            401
     20. Seattle                           2                      2            210
     21. St. Paul                          5                      5            144
     22. Tampa                             2                      0             29
     23. Washington                       27                     26             58
     Total                               121                     83          5,345
     Source: ATF

           ATF does not track the results of gun show operations, but rather the results
          35

of firearms trafficking investigations.


U.S. Department of Justice                                                             23
Office of the Inspector General
Evaluation and Inspections Division
Most investigative operations at gun shows were covert operations
that targeted specific individuals suspected of firearms trafficking.

       Seventy-seven percent of all ATF investigative operations at gun
shows (156 of 202) from FY 2004 through FY 2006 had a specific target.
In 79 of the 121 operational plans that we reviewed, we found that ATF
Special Agents had presented evidence to open an investigation into
firearms trafficking crimes by a known suspect or suspects before
conducting an investigative operation at a gun show. Most specific target
operations at gun shows were part of an ongoing investigation of an
individual or individuals suspected of firearms trafficking. An
investigation may require ATF Special Agents to conduct several
investigative operations to collect evidence. According to ATF case agents
and other ATF personnel we interviewed, sometimes the investigation
only involves the suspect’s illegal firearms activity at a gun show. At
other times, the investigation may include the suspect’s illegal firearms
activity at a gun show as well as at other locations such as a private
residence or gun shop. When conducting the specific target operations
at gun shows, ATF Special Agents worked covertly to collect evidence,
without the knowledge of the suspects, promoters, or other gun show
attendees in order to protect the integrity of the operation and public
safety. As a rule, ATF officials said that no enforcement action, such as
arrests or firearms seizures, was taken during the gun shows.

       Operations involving specific targets at gun shows generally
focused on convicted felons who were suspected of buying guns,
suspected straw purchasers, individuals selling firearms as a business
without a license, persons possessing prohibited firearms such as
unregistered machine guns and sawed-off shotguns, and FFLs who were
not documenting transactions or requesting background checks as
required by federal law. For example, ATF initiated one operation after
an agent learned that a private seller was actually engaged in the
business of selling guns for a living. Although individuals are allowed to
sell guns from their personal collections without a federal license, they
are not allowed to sell guns for a living without a license. In another
case, ATF had intelligence information that an individual was making
straw purchases at gun shows and then reselling the guns in the
Washington, D.C., area. Many of the guns the individual sold were later
traced to crimes. Other cases targeted specific individuals known to be
engaging in interstate or international firearms trafficking at gun shows.
These individuals were buying guns in one state and transporting them
to another state to sell to persons prohibited from legally owning guns or
across international borders to sell to members of drug cartels or gangs.


U.S. Department of Justice                                              24
Office of the Inspector General
Evaluation and Inspections Division
Twenty-three percent of ATF’s operations at gun shows targeted
local or regional illegal firearms trafficking and only one field
division conducted blanket residency checks.

       While ATF operations at gun shows most commonly involved
investigations of known suspects, six field divisions – Columbus,
Houston, New Orleans, Phoenix, San Francisco, and Washington, D.C. –
conducted 46 investigative operations from FY 2004 through FY 2006
that targeted general illegal activity related to firearms trafficking
occurring at gun shows in their areas. From the 42 operational plans we
reviewed and our interviews regarding these general investigative
operations, we found that the field divisions initiated the operations
based on law enforcement intelligence and information from other
sources indicating that various firearms trafficking crimes were occurring
at gun shows in the divisions’ regions of responsibility. For example, the
Houston and Phoenix field divisions deal with widespread international
firearms trafficking by individuals and gangs that cross the U.S. border
carrying drugs and then return to Mexico carrying guns that they
obtained through straw purchases at gun shows in the southwestern
states. In some cases, ATF divisions also had identified widespread
interstate firearms trafficking in their regions. The operational plans for
these broader investigative operations also showed that the operations
were usually conducted by ATF-led task forces associated with national
violent crime reduction programs – such as Project Safe Neighborhoods,
Violent Crime Impact Teams, or Project Exile – and included support
from other federal, state, and local law enforcement agencies. 36

       Because the February 2006 congressional hearings raised
concerns about investigative techniques used at ATF’s operations in
Richmond, Virginia, targeting general illegal firearms activity at certain
gun shows, we examined some of the general operations conducted by
the six field divisions. We looked at the intelligence behind the decisions
to conduct such operations, the investigative techniques used to execute
the operations (which we found were generally illustrative of those used
by ATF for any operation at a gun show), and the law enforcement

        36 Project Safe Neighborhoods is a nation-wide program for reducing gun crime

violence. The 93 U.S. Attorneys lead the task forces of local, state, and federal agency
participants. The Violent Crime Impact Team initiative was established by ATF to
reduce homicides and other firearms-related violent crime in 29 cities. Project Exile is a
federal program that shifts the prosecution of illegal gun possession offenses from state
courts to federal court, where under the Gun Control Act, convictions carry a
mandatory minimum sentence of 5 years in federal prison.



U.S. Department of Justice                                                             25
Office of the Inspector General
Evaluation and Inspections Division
results achieved. Five of the six divisions conducted all general
operations covertly. That is, the ATF agents did not inform gun show
promoters about the operations, several agents worked inconspicuously
inside the gun show unknown to vendors and the public, and agents did
not take enforcement actions at or near the gun shows. The Washington
Field Division, which has jurisdiction over Virginia, the District of
Columbia, and eight counties in West Virginia, was the only field division
we reviewed that conducted overt investigative operations targeting
general illegal firearms activities at gun shows. The more visible
investigative approach used by the Washington Field Division during its
operations at some gun shows in the Richmond area was intended to
serve as a deterrent to individuals engaged in illegal firearms activity.
One concern raised during the congressional hearings was ATF’s use of
blanket residency checks. 37 We found that only the Washington Field
Division had used blanket residency checks as an investigative technique
(discussed later in the report).

       The following sections summarize a few of the investigative
operations of illegal firearms trafficking conducted by the six field
divisions at gun shows.

Columbus Field Division
                                                        Columbus’s Jurisdiction

       The Columbus Field Division                      The Columbus Field
identified problems with international                  Division has jurisdiction
firearms trafficking between the United                 over Ohio and Indiana.
                                                        It has field offices in
States and Canada; interstate trafficking,
                                                        Cleveland, Youngstown,
especially between Ohio and New York and                Toledo, Columbus, and
between Indiana and Illinois; and                       Cincinnati, Ohio; and
intrastate trafficking by local gangs in Ohio           Indianapolis, Ft. Wayne,
and Indiana.                                            Merrillville, and South
                                                        Bend, Indiana.
      According to the division’s SAC, in
2006, 5,000 guns used in crimes were traced to gun sales in Ohio.
About 75 percent of those guns were recovered in Ohio and the other 25
percent were recovered in other states, primarily in New York. The SAC
said that crime gun trace data shows that Ohio ranks among the top 10
states that are sources for crime guns recovered in the United States.

       37  A blanket residency check is an investigative technique that involves verifying
the residences of all potential gun purchasers who provide addresses that fall within a
targeted geographical area to determine whether they have provided false addresses on
their federal firearms transaction documents.


U.S. Department of Justice                                                             26
Office of the Inspector General
Evaluation and Inspections Division
       According the division’s SAC and ASAC as well as our reviews of
operational plans and reports of investigation, the Cleveland Group II
Field Office conducted general investigative operations at three gun
shows held near the Cleveland, Ohio, in 2006. The operations were
based on information provided by the Cleveland Police Department and
other law enforcement intelligence that many of the guns recovered in
high-crime areas of the city had been purchased at local gun shows. The
field office conducted the operations in cooperation with the Cleveland
Police Department and focused on identifying unlicensed dealers, straw
purchasers, FFLs violating federal firearms laws, and prohibited persons
in possession of firearms at the gun shows. Officers from the Canada
Border Services Agency attended the second ATF gun show operation
conducted in the Cleveland area in 2006 to help ATF identify firearms
traffickers and gang members suspected of buying guns at area gun
shows and smuggling them into Canada.

        According to the operational plans we reviewed, ATF conducted the
operations covertly –.the gun show promoters were not informed of the
operations, agents worked discreetly inside the gun shows, and no
enforcement actions were taken inside or on the grounds of the gun show
facilities. The three operations conducted by the Cleveland Group II
Field Office resulted in the seizure of five guns, one indictment, and two
pending indictments for felony possession of a firearm.

Houston Field Division
                                                Houston’s Jurisdiction
      The Houston Field Division
conducted general investigative operations     The Houston Field
                                               Division has jurisdiction
at gun shows aimed at regional and cross-      in Central, Southern, and
border firearms trafficking between Mexico     Eastern Texas along with
and the United States.                         some areas in Western
                                               Texas. It has field offices
       According to an ASAC assigned to the    in Austin, Beaumont,
                                               Corpus Christi, Laredo,
division, between Brownsville and Laredo,      McAllen, Waco, and San
Texas, 3,000 murders occurred on the           Antonio.
Mexican side of the border from FY 2004
through FY 2006. Two drug cartels are at war in Mexico, and numerous
gangs in Houston, Laredo, and McAllen serve as “enforcers” for the
cartels. According to federal and local law enforcement intelligence,
members of the cartels and gangs get guns from the same sources that
law-abiding citizens do – FFLs, flea markets, and gun shows – either by
buying the guns themselves or through the use of straw purchasers.



U.S. Department of Justice                                                   27
Office of the Inspector General
Evaluation and Inspections Division
      The Houston Field Division’s McAllen Field Office conducted
general investigative operations at two gun shows in Pharr, Texas, during
2005 and 2006 to identify straw purchasers, co-conspirators, and others
who had been facilitating interstate and international firearms trafficking
and to determine where traffickers were taking the firearms and
ammunition that they purchased at the gun shows. According to the
RAC of the McAllen Field Office, ATF and other federal and local law
enforcement agencies tried to apprehend the traffickers before they could
transfer their purchases to prohibited persons or smuggle them into
Mexico.

      According to the RAC of the McAllen Field Office and the
operational plans we reviewed, potential straw purchasers and other
suspects were monitored by surveillance teams working inside the gun
shows. The teams were instructed to conduct the operation as discreetly
as possible. Any enforcement activity took place away from the gun
show premises. If there were indications that suspects were headed for
Mexico, Department of Homeland Security personnel coordinated
outbound inspections of the suspects with border patrol personnel.

      While some cases are still pending, the McAllen Field Office’s
operations at the gun shows have so far resulted in the arrests of 3
undocumented Mexican nationals after they purchased 3,000 rounds of
ammunition and 14 firearms that ATF agents believed they planned to
smuggle into Mexico. A Mexican national with U.S. resident-alien status
also was arrested after coordinating straw purchases of 10 high-priced
firearms.




U.S. Department of Justice                                              28
Office of the Inspector General
Evaluation and Inspections Division
New Orleans Field Division
                                                  New Orleans’ Jurisdiction
       The New Orleans Field Division and
local law enforcement agencies in the New       The New Orleans Field
Orleans area identified a long-standing         Division has jurisdiction
problem with straw purchasers who bought        over Louisiana, Mississippi,
                                                and Arkansas. It has field
guns that were later diverted to prohibited     offices in Little Rock and
persons, especially to convicted felons and     Fort Smith, Arkansas;
local gangs. After reviewing hundreds of        Baton Rouge, New Orleans,
trace reports associated with crime guns        and Shreveport, Louisiana;
recovered in the area and interviewing          and  Biloxi, Jackson, and
                                                Oxford, Mississippi.
known gang members and other criminals,
ATF Special Agents identified area gun
shows as a source used by local gang members and other criminals to
obtain guns. The subjects obtained the weapons either through a third
party engaged in straw purchasing or by dealing directly with private
sellers who were hobbyists or private gun collectors and therefore not
subject to federal regulations.

       From FY 2004 through FY 2006, the New Orleans Group II Field
Office conducted operations at gun shows in Kenner, Louisiana, as part
of larger investigations into illegal firearms trafficking. According to the
operational plans, the field office wanted to identify straw purchasers
and other individuals selling guns to convicted felons and gather
intelligence about the way criminals were obtaining firearms at the gun
shows.

      According to the operational plans and the SAC, the operations
were covert. Surveillance teams working inside the gun show collected
information on suspicious activity. Suspects identified as convicted
felons by the inside surveillance team had their weapons seized at the
shows to protect public safety. Any other enforcement activity, when
warranted, occurred away from the gun show. The operations resulted
in 12 arrests, 6 convictions (some cases are still ongoing), and 4 seized
firearms.




U.S. Department of Justice                                                    29
Office of the Inspector General
Evaluation and Inspections Division
Phoenix Field Division
                                                            Phoenix’s Jurisdiction
       The Phoenix Field Division identified
regional problems with international                       The Phoenix Field
firearms trafficking across Arizona’s and                  Division has jurisdiction
New Mexico’s borders with Mexico. The                      over Arizona, Colorado,
                                                           Utah, Wyoming, and two
division also identified regional problems                 thirds of New Mexico. It
with interstate firearms trafficking between               has field offices in
California, which has stringent gun control                Phoenix, Flagstaff, and
laws, and the five western states in the                   Tucson, Arizona; Denver
division’s jurisdiction, which have less                   and Colorado Springs,
                                                           Colorado; Albuquerque,
restrictive gun laws.
                                                           New Mexico; Salt Lake
                                                           City, Utah; and
       The division’s SAC told us that many                Cheyenne, Wyoming.
gun shows attracted large numbers of gang
members from Mexico and California. They
often bought large quantities of assault weapons and smuggled them into
Mexico or transported them to California. The Mexican government had
expressed concerns about the gun smuggling into Mexico, and the SAC
said, “We have to act on those concerns.”

       For example, during FY 2004 through FY 2006, the Tucson Field
Office, Phoenix Group I, and Phoenix Group II conducted operations that
targeted general illegal activity associated with international and
interstate firearms trafficking at eight gun shows in Phoenix, Yuma, and
Tucson, Arizona, and Albuquerque, New Mexico. 38

       According to the operational plans and the SAC, no enforcement
activity took place at the gun shows. Covert surveillance teams inside
the gun shows observed vendor and customer behaviors to identify
potential straw purchasers and other illegal activity. If it appeared that
gun purchasers were returning to Mexico with guns, they were stopped
at the port of entry and their vehicles searched. Those operations alone
resulted in 13 arrests, 3 convictions, and 193 seizures of illegally
purchased firearms.




       38  The plans for these operations cited the goals of targeting gun trafficking to
Mexico; illegal aliens in possession of guns; armed traffickers purchasing, selling, or
exchanging guns for narcotics; convicted felons in possession of firearms; individuals
trying to purchase explosives to traffic in Mexico; vendors dealing in firearms as a
business without a license; and vendors selling firearms to out-of-state buyers.


U.S. Department of Justice                                                              30
Office of the Inspector General
Evaluation and Inspections Division
San Francisco Field Division
                                                   San Francisco’s Jurisdiction
       The San Francisco Field Division
conducted six general operations at gun       The San Francisco Field
shows to investigate interstate firearms      Division has jurisdiction over
trafficking based on intelligence reports     Northern California and the
that California residents were illegally      State of Nevada. In California,
                                              it has field offices in San
obtaining firearms at Nevada gun shows.       Francisco, Bakersfield, Dublin,
According to field division personnel,        Stockton, Oakland,
Reno, Nevada, is a gateway for illegal        Sacramento, Santa Rosa, San
firearms trafficking into California          Jose, Fresno, and Redding. In
because of its proximity (12 miles from       Nevada,   it has field offices in
                                              Reno and Las Vegas.
the state line) and Nevada’s less
stringent gun laws. Unlike California,
Nevada does not require gun registration or a waiting period before
buying a gun, and there is no legal limit to the number of firearms that
can be purchased within a specified time.

       ATF agents attended one gun show in FY 2003 and confirmed that
illegal firearms sales and other illegal transactions were occurring.
Intelligence gathered from this first show was used to plan a longer-term
investigation into interstate firearms trafficking. During subsequent
operations at Reno gun shows during FY 2004, Special Agents engaged
in undercover activities that included Special Agents who were residents
of California attempting to purchase firearms in violation of the GCA
from licensed and unlicensed dealers. Subsequent operations focused on
a number of licensed and unlicensed dealers who were illegally dealing in
firearms at the shows. In these operations, agents purchased firearms
and identified violations related to “off paper” sales, sales to out-of-state
residents, and dealing in firearms without a license. 39

      According to the operational plans, the ASAC, RAC, and ATF
Special Agents conducted surveillance within the gun shows and any
enforcement activity occurred away from the gun show premises. The
ASAC and RAC stated that all the operations were conducted covertly to
avoid interfering with the lawful sales of firearms at the shows. For
example, they said that agents worked inconspicuously to observe
unlicensed dealers selling to out-of-state residents and served search
warrants to targeted FFLs after the shows closed in the evening.



       39  “Off paper” sales are those that are made by FFLs who have not documented
the sale or requested the required background checks before making the sales.


U.S. Department of Justice                                                        31
Office of the Inspector General
Evaluation and Inspections Division
      As a result of the operations at the Reno gun shows, ATF seized or
purchased 400 firearms before making arrests and executing search
warrants, which resulted in the seizure of an additional 600 firearms and
the recovery of explosives. Fourteen suspects were charged with 52
counts of federal and state firearms violations. Eleven of the 14 were
subsequently convicted.

Washington Field Division

       The Washington Field Division was        Washington’s Jurisdiction
the only one of the 12 field divisions that  The Washington Field Division
we reviewed that reported conducting         has jurisdiction over Virginia,
overt operations at gun shows.               the District of Columbia, and
According to ATF officials, the              eight counties in West Virginia
Washington Field Division also was the       (Morgan, Berkeley, Jefferson,
                                             Mineral, Hampshire, Grant,
only one of ATF’s 23 field divisions to      Hardy, and Pendleton). It has
conduct residency checks based on a          field offices in Washington,
designated geographic area. From May         D.C.; Bristol, Charlottesville,
2004 through August 2005, the                Falls Church, Harrisonburg,
Washington Field Division’s Richmond III     Norfolk,   Richmond, Roanoke,
                                             Winchester, Virginia; and
Field Office conducted eight investigative   Martinsburg, West Virginia.
operations targeting general illegal
activity occurring at gun shows in the
Richmond, Virginia, area. According to the former and current RACs of
the Richmond III Field Office, the operations were initiated because law
enforcement intelligence indicated that known gang members and other
criminals were obtaining firearms at local gun shows and many gun
purchases were made using false addresses. ATF officials said that from
2002 through 2005, more than 400 firearms sold by FFLs at Richmond-
area gun shows were later recovered in connection with criminal activity,
with more than 300 of those guns recovered in the Richmond area alone.

       Further, the former and current RACs told us that when their
agents tried to interview individuals who had originally purchased the
firearms at the gun shows, they found that many of the purchasers did
not live at the addresses listed on their firearms transaction documents.
They said that some purchasers had used old addresses, fictitious
addresses, or addresses of vacant lots on their federal firearms
transaction records. 40

       40 Federal law prohibits knowingly giving false information to an FFL in
connection with the purchase of a firearm and prohibits the sale of a firearm by an FFL
to a person prohibited from possessing a firearm. The accuracy of the information
                                                                                  (Cont’d)

U.S. Department of Justice                                                            32
Office of the Inspector General
Evaluation and Inspections Division
      The former RAC led the first six investigative operations at
Richmond-area gun shows conducted during May 2004 through March
2005. The Commander-on-the-Scene of the first six operations was the
Acting RAC at the time of the seventh operation in May 2005 and the
RAC at the time of the eighth operation in August 2005. ATF Special
Agents prepared operational plans for each of the eight Richmond-area
operations. The serving RAC obtained approval of the plans from the
U.S. Attorney’s Office, ATF’s Office of General Counsel, and the SAC of
the Washington Field Division.

       At each of the investigative operations, the RAC said he planned to
identify potential straw purchasers and individuals who gave inaccurate
information on their federal firearms transaction records, especially
those giving false addresses. According to the operational plans and the
RACs, the objectives of the operations were to enforce federal firearms
trafficking laws and to prevent prohibited persons from obtaining
firearms through illegal sales, especially through straw purchases.

       ATF conducted the first seven operations at gun shows held at a
building called The Showplace, which is located just outside Richmond’s
city limits but adjacent to the city’s three highest violent crime areas.
The same gun show promoter organized the seven shows, and the
promoter and his attorney met with ATF officials on several occasions
during the shows. The promoter asked ATF to provide educational
materials and training for FFLs at the gun shows so they could better
identify straw purchases and other firearms violations.

      For the first seven operations, ATF agents established a mobile
command post about 2 miles from the site of the gun show and used
surveillance units to monitor activity in the gun show. When possible,
the RAC said that enforcement activity occurred off-site of the show.
Before each show, the RAC notified the promoters and property
managers that ATF would be conducting operations at the gun show.

       During the first seven operations, ATF agents used blanket
residency checks to verify the addresses of potential gun buyers.
According to ATF officials, ATF Special Agents are permitted to verify
addresses as part of an investigation. While there are several ways to
verify an address, for these seven operations ATF asked local law
enforcement officers to visit the addresses to determine whether the

purchasers provide is particularly important because it is used to initiate the
background check process the GCA requires.


U.S. Department of Justice                                                        33
Office of the Inspector General
Evaluation and Inspections Division
buyers actually lived there. These visits were made to City of Richmond
addresses supplied by potential gun buyers if FFLs delivered their
transaction documents directly for background checks to on-site Virginia
State Police personnel. If the visits could not be conducted within 20
minutes by law enforcement officers in the field, the purchases were
allowed to proceed. No visits were made if FFLs telephoned requests for
background checks from their tables or booths at the shows rather than
taking paper forms to the police personnel on site. According to the
RACs, the purpose of the residency checks was to identify those buyers
giving false addresses on their firearms transaction documents, a
problem that had been identified in past investigations. Potential buyers
who did not reside at the addresses they had provided were interviewed
off-site of the gun shows by ATF agents, and some were subsequently
charged with providing false information on federal and state documents.

       ATF also positioned surveillance teams inside the gun shows to
observe persons making straw purchases. The RACs and agents stated
that evidence of straw purchases is based on behavioral characteristics
such as purchasers who are disinterested in or lacking knowledge about
the guns they buy, taking buying instructions from a companion or over
a cell phone, and presenting identification dated the day of the gun show.
ATF personnel said that the characteristics are not based on gender or
race but on the actions of the individuals. According to the RAC,
suspected straw purchasers were sometimes approached by ATF agents
or other law enforcement personnel before a sale was completed and, at
other times, they were followed and interviewed away from the gun
shows. In some cases, ATF agents seized suspects’ guns and handed
them a pre-printed letter telling them they may have violated federal
firearms laws and citing a date and time for a follow-up interview. When
suspects admitted making straw purchases or the guns were found in
possession of prohibited persons, the suspects were arrested. These
enforcement actions were taken off-site of the gun shows.

      For the seventh and eighth operations, the new RAC expanded the
objectives of the operations to focus overtly on education, enforcement,
and prevention for a deterrent effect. Therefore, operations carried out at
the May 2005 and August 2005 gun shows included enforcement
techniques that were more visible to the public.

      The RAC instructed agents and police officers to use their
judgment as to when and where to make contact with suspects and that
possible contact points included FFL tables, snack bars, the on-site
Virginia State Police office foyer, or the officer’s or agent’s vehicle.


U.S. Department of Justice                                              34
Office of the Inspector General
Evaluation and Inspections Division
However, ATF agents did not hand out letters to suspected straw
purchasers. According to the RAC, ATF agents, and other attendees at
the gun shows, this overt approach provided increased contact with
potential straw purchasers as agents and officers informed individuals
attending the gun shows about the penalties for unlawfully purchasing a
firearm for another person. ATF agents reported that the operations
resulted in “hundreds of citizen contacts.”

       The eighth operation, conducted in August 2005, was different in
several ways. First, the site of the gun show changed from The
Showplace to the Richmond International Raceway and Fairgrounds
complex. The gun show also was organized by a different gun show
promoter who had no prior experience with this type of overt ATF
operation. The RAC established a law enforcement command post inside
the gun show facility and, for the first time, pre-operation briefings were
held on the grounds of the gun show facility in full view of many FFLs
and the attending public. The RAC also expanded the geographic area
for the residency checks to include not only the City of Richmond but
also all of Henrico County. County police had expressed concern about
illegal gun purchases and crime guns in the county. This was the first
operation in which the Henrico County Division of Police helped conduct
residency checks. As in the previous seven operations, when FFLs
telephoned their requests for background checks to the Virginia State
Police, the buyers’ residences were not visited by the police for
verification. Also, potential buyers who did not reside at the addresses
they had provided were interviewed off-site of the gun show by ATF
agents, and some were subsequently charged with providing false
information on federal and state documents. If residency could not be
verified within 20 minutes, the firearms purchase was not delayed.

       As a result of the 302 residency checks conducted as part of the
eight operations at Richmond-area gun shows, ATF found that 47
purchasers, or 16 percent, provided invalid addresses. However, the U.S.
Attorney’s Office rarely chose to prosecute a case that involved only an
invalid address. The Washington Field Division also used residency
checks to a much lesser extent during a gun show in Chantilly, Virginia,
in August 2004, where one residency check was conducted, and during a
gun show in Hampton, Virginia, in September 2004, where eight
residency checks were conducted.

      In January 2006, ATF’s Assistant Director for Field Operations
issued guidance to ATF personnel reinforcing policy and best practices
related to operations at gun shows, including conducting residency


U.S. Department of Justice                                               35
Office of the Inspector General
Evaluation and Inspections Division
checks. In his guidance, the Assistant Director stated, “It is not ATF
policy to conduct residence checks without reasonable suspicion that
criminal violations may exist.” ATF officials said that they are
incorporating the guidance into ATF’s Order 3310.4B, Firearms
Enforcement Program.

        Overall, the eight investigative operations conducted by the
Washington Field Division at Richmond-area gun shows resulted in 24
arrests and 23 convictions for firearms violations. Most of the
convictions were for straw purchases. ATF Special Agents also seized 47
illegally purchased firearms.

ATF Special Agents complied with ATF Headquarters’ policies and
procedures for planning operations at gun shows.

      We reviewed 121 operational plans and found that 120 (99 percent)
of these plans complied with ATF policies and procedures regarding
operational planning. All of the operational plans except one used the
designated template, ATF Form 3210.7, ATF Operational Plan, and
contained information identified by ATF policy as appropriate for
conducting the operations. For example, the operational plans contained
a description of specific targets and vehicles, information describing the
operational staging area, lists of personnel and their roles and
responsibilities, a tactical narrative describing how the operation was to
be conducted, and safety information such as the location of the
command post and the nearest hospital.

       One operational plan we reviewed did not fully meet ATF’s policy
and procedures for operational planning. When we requested the
operational plan for this particular gun show operation, we only received
a tactical narrative and a roster of assigned personnel and their roles and
responsibilities. We did not receive a completed ATF Form 3210.7, the
standard planning template for significant investigative operations.
Further, the tactical narrative did not provide the location of the gun
show and the location of the command post. The RAC for the operation
stated that the ATF Form 3210.7 that was prepared for previous gun
show operations also covered this operation, but the location of the gun
show, command post, and law enforcement roles had changed and a new
form should have been prepared.




U.S. Department of Justice                                               36
Office of the Inspector General
Evaluation and Inspections Division
Most gun show promoters and all state and local law enforcement
personnel we interviewed supported ATF’s operations at gun shows.

       Five of the seven gun                 Few Complaints about ATF
show promoters we                       During FY 2004 Through FY 2006
interviewed from different
areas of the country where       In response to our request for all complaints
large numbers of gun shows       received from FY 2004 through FY 2006
                                 regarding Special Agent conduct and activities
are held each year               at gun shows, ATF provided us with 22 letters
complimented ATF’s               from 20 complainants. Of the 20 complainants,
firearms enforcement efforts.    18 expressed concern about the August 2005
These five promoters had a       gun show in Richmond. However, 17 of the 18
total of 96 years of             complainants had not attended the August
                                 2005 show. Of those 17 complaints, 15 were
experience organizing gun        based on an article posted on an Internet
shows. Collectively, they        website.
conduct 94 shows per year
with a total attendance in       Of the remaining two letters, the first
excess of 150,000. The           complainant complained about his arrest for
                                 possession of a firearm by a prohibited person
promoters stated that they       due to a misdemeanor domestic assault
had a “good” or “very good”      conviction in New Jersey. He was stopped and
relationship with ATF and        arrested after being followed from a gun show
that they had never received     on suspicion of a straw purchase. The second
complaints about ATF’s           complainant had been indicted recently for
                                 selling firearms without a license at a gun show
tactics or behavior at their     and was angry that his inventory had been
shows. One promoter,             seized by ATF.
however, told us there is
always a small group that questions any ATF involvement at a gun show
for any reason. He did not consider such comments to be complaints,
but rather a “philosophical statement.”

      Two Richmond-area promoters expressed concerns that ATF
Special Agents used aggressive and harassing techniques at the August
2005 gun show that was held at the Richmond International Raceway
and Fairgrounds complex. One promoter, who had testified at the first
congressional hearing on February 15, 2006, restated her concerns to
us: that law enforcement agents interrogated and intimidated potential
customers, targeted women and minorities as potential straw
purchasers, visited the homes of buyers to verify their addresses, and
detained some gun buyers after they left the gun show and seized their
weapons without cause. 41

       41 The Subcommittee on Crime, Terrorism, and Homeland Security, Committee
on the Judiciary, House of Representatives, conducted the hearings on February 15
                                                                               (Cont’d)

U.S. Department of Justice                                                          37
Office of the Inspector General
Evaluation and Inspections Division
       All seven of the promoters told us that illegal gun sales and
purchases at gun shows are an appropriate concern and that they expect
ATF to enforce federal firearms laws at gun shows. They also stated that
illegal gun sales by unlicensed vendors hurt the legitimate businesses at
the shows and that they had all received at least some complaints from
FFLs about the activities of unlicensed dealers. In addition to individual
gun show promoters, we interviewed several public interest groups
representing gun show promoters, FFLs, gun owners, and collectors.
Their comments are summarized below.

       •   The National Association of Arms Shows (NAAS) is a national
           organization representing gun show promoters. The President,
           a promoter of 45 major gun shows a year, said NAAS’s
           objectives were to develop a dialogue for solving the common
           problems faced by promoters and for promoting safety and
           compliance standards for gun shows. He stated that he had not
           heard of any problem with ATF attendance at gun shows from
           promoters other than the two Richmond promoters. He believed
           that what he had heard about the Richmond gun show was “out
           of character” for ATF.

       •   The National Shooting Sports Foundation (NSSF) is a trade
           association with a membership of more than 3,600 firearms
           manufacturers, distributors, retailers, sportsmen’s
           organizations, and publishers. The NSSF also has a subsidiary
           division called the National Association of Firearms Retailers
           that represents 50,879 FFLs across the country. The Senior
           Vice President of the NSSF characterized his organization’s
           relationship with ATF as good. NSSF representatives meet
           quarterly with ATF officials to discuss their joint “Don’t Lie for
           the Other Guy” campaign and to explore other collaborative
           efforts, such as redesigning the ATF Form 4473 (Firearms
           Transaction Record) and developing a standardized electronic
           version of the form. NSSF’s Senior Vice President told us that
           the majority of FFLs represented by the NSSF primarily sell
           firearms from their place of business (e.g., store) rather than at
           gun shows. While he was troubled by what he had heard and
           read about the Richmond gun shows, he had no firsthand

and 28, 2006. (See Government Printing Office website for a full transcript of the
hearings, 109th Congress, Serial No. 109-123; or the U.S. House of Representatives
website, 109th Congress for Part I on February 15, 2006, and Part II on February 28,
2006, for the transcripts of the hearings.)


U.S. Department of Justice                                                             38
Office of the Inspector General
Evaluation and Inspections Division
           knowledge of ATF gun show operations. Rather, he said the
           NSSF’s concerns center on ATF’s regulatory inspections of FFLs.

       •   The National Rifle Association (NRA) is a non-profit group that
           promotes marksmanship, firearms safety, and the protection of
           hunting and personal protection firearms rights in the United
           States. We talked with an NRA attorney who worked in the
           NRA’s Office of Legislative Counsel, Institute for Legislative
           Action, and who handled the NRA’s investigation of the
           Richmond-area gun shows. He told us that ATF Special Agents
           normally do a good job and that ATF’s first seven gun show
           operations in the Richmond-area had not generated NRA
           concerns. However, he believed that ATF agents and other law
           enforcement agencies had used unnecessarily aggressive and
           harassing tactics at the eighth gun show in Richmond.

       During our site visits to Richmond and Reno, we interviewed state
and local law enforcement officials with the Richmond City Police,
Henrico County Division of Police, Virginia State Police, and Washoe
(Nevada) County Sheriff’s Office. Generally, these officials stated that
ATF was an important partner in fighting local violent crime and that
they supported ATF’s activities. The state and local law enforcement
officials’ comments specific to gun show enforcement are summarized
below.

       •   Richmond City Police officers were directly involved in the eight
           ATF operations at gun shows in the Richmond area from May
           2004 through August 2005. The police official we interviewed
           stated that his department was in favor of these operations and
           appreciated ATF’s assistance in combating the area’s high level
           of gun crime. He also stated that gun shows are a source of
           firearms for criminals in the Richmond area.

       •   Henrico County Division of Police officers had less involvement
           than the Richmond City Police in the ATF’s Richmond-area gun
           show operations and participated most significantly at the
           August 2005 gun show. While Henrico County Police received
           complaints about its involvement in this gun show operation, in
           general Henrico officials said they were supportive of ATF’s
           work. One police official stated that operational plans prepared
           by ATF are usually thorough and well thought out and that ATF
           usually works very discreetly at gun shows.



U.S. Department of Justice                                                39
Office of the Inspector General
Evaluation and Inspections Division
       •   Virginia State Police officers provided law enforcement support
           to ATF during the eight operations at Richmond-area gun
           shows. In addition, other Virginia State Police employees
           conducted National Instant Criminal Background Checks on
           the site of the gun show for most of the shows. Virginia State
           Police officials who observed ATF’s performance at the shows
           told us that ATF Special Agents conducted their work in a
           professional manner.

       •   The Washoe County Sheriff’s Office has law enforcement
           jurisdiction for the unincorporated areas surrounding Reno,
           Nevada. The Assistant Sheriff said that his office works more
           closely with ATF than with any other federal law enforcement
           agency, and he has assigned a Deputy Sheriff to work
           permanently at ATF’s Reno Field Office. The Deputy has
           worked with ATF Special Agents on firearms investigations,
           which included operations at gun shows. The Assistant Sheriff
           stated that his office had a positive relationship with ATF and
           that ATF’s work, including its work at local gun shows, has
           served to reduce local firearms trafficking activities, especially
           interstate trafficking to California.

Matters for Management Consideration

       During our review of operational plans and interviews with field
division personnel, we identified two matters related to ATF policy that
could strengthen investigative operations at gun shows. In the following
sections, we provide information about the two matters for ATF
management’s consideration.

ATF’s national policies contain contradictory guidance on approving
operations.

       ATF Order 3310.4B, Firearms Enforcement Program, contradicts
instructions in ATF Order 3210.1A, Operational Planning, regarding
approval requirements for operational plans. Order 3310.4B states that
“the SAC is the approving official for all significant/sensitive enforcement
activities such as issuing notices, summonses or subpoenas, making
arrests, or executing warrants on the gun show or flea market premises,
or their adjacent parking lots.” However, Order 3210.1A states that an
ATF Form 3210.7, ATF Operational Plan, is required for “search
warrants, arrest warrants, undercover purchases, buy-busts, and/or
special undercover operations” and “shall be . . . submitted to the


U.S. Department of Justice                                                 40
Office of the Inspector General
Evaluation and Inspections Division
affected RAC/GS [Group Supervisor] for review and approval.” The order
goes on to state, “the RAC/GS must notify the ASAC of the operation.
Notification may also take place by telephone, facsimile, or e-mail.” No
reference is made to SAC approval or to ATF Order 3310.4B. Although
we found that SACs or ASACs generally were knowledgeable about gun
show operations in their divisions, field office and division personnel
expressed some uncertainty about the approval chain for the operational
plans when we asked about the process during interviews. Therefore,
the ATF should consider clarifying the operational plan approval process
by revising the guidance in ATF Order 3310.4B and ATF Order 3210.1A
so that they agree.

One field division has developed local policy for conducting investigative
operations at gun shows in its region.

       Because national policy for investigative operations at gun shows
is general and primarily focused on specific suspects, the Houston Field
Division has developed policy to guide operations involving general illegal
firearms activity at gun shows to meet local priorities and conditions.
The field divisions we reviewed that conducted the general operations
told us that the operations require more guidance because they are
aimed at a wider range of criminal firearms activity, involve unknown
suspects, and may involve interstate and international jurisdictions and
laws. The Houston Field Division, which conducted several operations at
gun shows targeting interstate and international firearms trafficking,
issued written regional guidance describing the SAC’s requirements and
best practices for operations at gun shows. Personnel from the other
field divisions we reviewed told us that they relied on verbal guidance,
which was articulated on a case-by-case basis by the SAC during the
approval process for specific operations. However, several field divisions’
succession of SACs during our study period made it difficult for agents to
know what verbal guidance was in effect from SAC to SAC.

    After reviewing the Houston Division’s policy, we found that it
addressed several planning, communication, coordination, and legal
requirements that supplement national policy and facilitate conducting
investigative operations at gun shows. Key provisions include:

       1. Increased involvement by ATF support personnel, such as
          Intelligence Research Specialists and Tactical Operations
          Officers, early in the planning process.




U.S. Department of Justice                                               41
Office of the Inspector General
Evaluation and Inspections Division
       2. Strong consideration of local law enforcement participation,
          particularly securing marked police vehicles for any necessary
          traffic stops.

       3. Timely submission of operational plans to allow for thorough
          review, analysis, and authorization to occur.

       4. Participation by other federal law enforcement agencies that can
          contribute valuable knowledge and services that increase the
          effectiveness and safety of gun show operations. For example,
          the Houston guidance stresses that Special Agents should
          attempt to have a Department of Homeland Security presence
          during operations at gun shows to handle any situations
          involving illegal aliens in possession of firearms.

       5. Consideration of certain legal concerns relevant to gun shows,
          such as approaching individuals in the show’s parking lot.

       6. Coordination of potential international firearms trafficking with
          federal, state, and foreign law enforcement agencies.

       Divisions that identify a need to conduct investigative operations
directed at general illegal firearms activity may find a policy like
Houston’s to be a “best practice” that could be adapted to their own
circumstances. Therefore, we are providing this information so that ATF
management may consider Houston’s approach to developing local
policies and procedures that describe unique regional problems and
provide specific considerations and methods for handling issues
encountered during operations at gun shows.




U.S. Department of Justice                                               42
Office of the Inspector General
Evaluation and Inspections Division
                                 CONCLUSION


      ATF conducts investigative operations at gun shows as part of its
overall strategy to prevent illegal firearms trafficking. ATF has no specific
enforcement program directed at gun shows. The 202 investigative
operations at gun shows conducted during the 3-year period that we
reviewed predominantly focused on specific suspects, although 23
percent of the operations targeted general illegal firearms activity at
certain gun shows. We found that ATF’s decisions to conduct
investigative operations, including those in the Richmond area, were
based on significant law enforcement intelligence from a variety of
sources indicating that illegal activity was occurring or was about to
occur at a specific gun show.

       Based on our review of 121 operational plans for investigative
operations conducted at gun shows; interviews with ATF personnel from
11 field divisions, state and local law enforcement personnel, and
representatives from national firearms-related organizations; and an
analysis of complaints received by ATF from FY 2004 through FY 2006,
we found that, with the exception of some Richmond-area gun shows,
ATF conducted its investigative operations at gun shows covertly without
incident and without complaints from promoters, vendors, or the public.
After the controversy surrounding ATF’s activities at the August 2005
Richmond gun show, ATF issued guidance to its field divisions advising
that the use of blanket residency checks was not an effective practice
and that residency checks should not be conducted without reasonable
suspicion that criminal violations may exist.




U.S. Department of Justice                                                43
Office of the Inspector General
Evaluation and Inspections Division
